4a
I

OCKLE

2311 Douglas Street CA : E-Mail Address:
Omaha, Nebraska 68102-1214 Legal Briefs contact@cocklelegalbriefs.com
Est. 1923 es
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 21-241

MONSANTO COMPANY,
Petitioner,
v.
EDWIN HARDEMAN,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF LAWYERS FOR
CIVIL JUSTICE AS AMICUS CURIAE IN SUPPORT OF PETITIONER in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 5786 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 30th day of September, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Webraska A i: b d,
RENEE J. GOSS 9 ¢ Daal nite ‘.
‘My Comm. Exp. September 5, 2023 *
Notary Public

Affiant 41433

  
   

 

 
